PROOF OF SERVICE
I,Madhu Sameer.do swear or declare that on this date 8/21/2020 (in New Zealand),as required by Supreme Court Rule 29,I have
served the following documents :
Motion For Leave To proceed in Forma Paupris,&
Petition for A Writ Of Certiorari
On defendant
RIGHT MOVE 4 U
mfranklin@therightmove4u.com
Michelle Franklin
mfranklin@therightmove4u.com
Dylan Cartino,
sales7@therightmove4u.com
Conroy Removals Ltd,
fionac@conroy.co.nz
Fiona Conroy,
fionac@conrov.co.nz
Monica McKinley
monicam@conrov.co.nz
Talbot Underwriting Risk Services Ltd
reed.lvon(iiclydeco.us
Conte C. Cicala
*** Till date, despite repeated requests, and 4 services attempted on various Talbot offices
and headquarters, Talbot Insurance has not provided a definitive answer as to who is to be
served. This is the email address and person who accepted the last service .
Shipco Transport
rcrowder(aresslerlIn.com. LADocketiOttresslerll [Icon)

XO Moving Systems
melissam@xamovingsystem.com

Using their email address
All others have since moved, changed their email address and are intentionally evading service.
I used my email address Madhu.bambroorikmail.com to serve these documents.
Respectfully Submitted

8/21/2020 (New Zealand)

Madhu Sameer,Petitioner,Pro Se

52

